No.
IN THE

SUPREME COURT OF THE UNITED STATES

JOHN HARRIS, Petitioner,
-vs-

PEOPLE OF THE STATE OF ILLINOIS, Respondent.

On Petition For Writ Of Certiorari

To The Appellate Court Of Illinois

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner requests leave to proceed in forma pauperis. The Petitioner has
previously been granted leave to proceed in forma pauperis in the court below. Counsel

was appointed to represent petitioner in the court below pursuant to 725 ILCS

105/10(a).

Respectfully submitted,

"

LLEN J CU
Deputy Defender
Counsel of Record

CHRISTINA M. O’CONNOR and Of Counsel
Assistant Appellate Defender

Office of the State Appellate Defender

Fifth Judicial District

909 Water Tower Circle

Mt. Vernon, IL 62864

(618) 244-3466

5thDistrict@osad.state.il.us

COUNSEL FOR PETITIONER
